HHS/OIG-Audit--"Follow-up Report on the Office of Inspector General Audit of Relationship Between the Hansen's Disease Foundation and Gillis W. Hansen's Disease Center, (A-06-92-00081)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Report on the Office of Inspector General Audit of Relationship
Between the Hansen's Disease Foundation and the Gillis W. Long Hansen's Disease
Center," (A-06-92-00081)
August 17, 1993
Complete
Text of Report is available in PDF format (776 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This follow-up final report presents the results of our review of the actions
taken regarding the relationship between the Hansen's Disease Foundation (Foundation)
and the Gillis W. Long Hansen's Disease Center (Center). Our prior report disclosed
that: (1) Center employees did not seek and receive approval for engaging in outside
activities as required under the Department of Health and Human Service's Standards
of Conduct; and (2) the Center absorbed the costs of research that should have
been charged to the Foundation. We concluded that the Public Health Service (PHS)
satisfactorily implemented the recommendations concerning the Center employees
awareness of and compliance to the Department's Standards of Conduct regarding
outside activities, and the establishment of procedures to ensure that future costs
incurred by the Center as a result of Foundation activities are identified and
reimbursed. However, the recommendation concerning the disposition of the recovered
funds has not been fully resolved but both parties have agreed upon costs reimbursement
totaling $164,727.66.